HHS/OIG-Audit -"Review of Hawaii's Medicaid Management Information System Expenditures for the Period July 1, 2002, Through December 31, 2004,"(A-09-05-00052)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Hawaii's Medicaid Management Information System Expenditures for the Period July 1, 2002, Through December 31, 2004," (A-09-05-00052)
October 26, 2005
Complete Text of Report is available in PDF format (257 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the MMIS costs for the period July 1, 2002, through December 31, 2004, claimed by the Hawaii Department of Human Services at the enhanced rate of 75 percent were allowable, allocable, and reasonable pursuant to Federal regulations.  The $47,872,913 of MMIS costs that Hawaii claimed at the enhanced rate of 75 percent was determined to be allowable, allocable, and reasonable pursuant to Federal regulations.